Office of Audit
for the Millennium Challenge Corporation

February 15, 2012


Mr. Daniel Yohannes
Chief Executive Officer
875 Fifteenth Street NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Review of the
Millennium Challenge Corporation’s Branding and Marking Policies and Practices (Report
No. M-000-12-002-S). In finalizing the report, we considered your written comments on our
draft report and included those comments in their entirety in Appendix II.

The review report contains seven recommendations to improve MCC’s branding and marking
policies and practices for investments in its compact countries. We consider that management
decisions have been reached on all seven of the recommendations and that final action has
occurred on Recommendation 7.

I appreciate the cooperation and courtesy extended to my staff during this review.


                                                    Sincerely,

                                                    /s/
                                                    Mark S. Norman
                                                    Acting Deputy Assistant Inspector General
                                                    for Audit
                                                    Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY OF RESULTS

The Millennium Challenge Corporation (MCC) asks partners managing branding and marking of
MCC-funded U.S. Government assistance to understand the value and importance of
communicating two key messages to the public: (1) MCC’s compacts are partnerships for
poverty reduction with countries committed to improving the lives of their citizens and (2) MCC’s
compacts are grants made possible by the generosity of the people of the United States.

MCC has designated a Millennium Challenge Account (MCA) in each compact country as the
entity responsible for implementing branding and marking there. As of September 30, 2011,
MCC had awarded $8.2 billion in assistance to 23 countries through compact agreements.

This review’s objective was to identify MCC’s branding and marking policies and practices for its
investments in compact countries.

The Office of Inspector General (OIG) found that MCC has branding and marking policies and
practices in its compact countries, but improvements could be made to better communicate that
MCC’s development projects are funded by the American people.

MCC’s policies include the Standards for Global Marking, which provides guidance to MCAs on
branding and marking, and the Standards for Corporate Marking and Branding, which provides
guidance on the use of MCC’s logo. MCC also includes branding and marking requirements in
compact agreements, program implementation agreements, MCA contracts, and MCC
guidance for closing programs. In practice, MCAs create signs identifying large-scale projects,
commemorative signs, or printed materials created for public events that they and MCC
participate in, MCA Web sites, and other mechanisms to publicize their projects. However, OIG
identified the following weaknesses with MCC’s current policies and practices:

   MCC’s branding and marking guidance lacks specifics (page 3).
   MCC’s branding costs were not known (page 6).

To help MCC improve its branding and marking policies and practices, the report recommends
that MCC’s Vice President of Congressional and Public Affairs:

1. Revise Standards
            	          for Global Marking to provide specific requirements to ensure that
   Millennium Challenge Account logos clearly and consistently acknowledge the generosity of
   the people of the United States (page 5).

2. Revise Standards for Global Marking to require that permanent, durable signs are created
   and placed at project sites resulting in permanent structures (page 6).

3. E
   	 stablish and implement procedures for developing, implementing, and approving
   Millennium Challenge Account communication strategies (page 6).

4. Revise Standards for Global Marking to include specific criteria for creating branding and
   marking manuals (page 6).

5. Revise Standards for Global Marking to require each compact country to create a branding
   and marking manual (page 6).


                                               1

6. 	 Establish and implement a policy for oversight responsibilities of branding and marking in
     each compact country (page 6).

7. 	 Establish and implement procedures to account for branding budgets and expenditures in its
     compact countries to provide the Millennium Challenge Corporation and the Millennium
     Challenge Accounts cost information to manage their branding and marking efforts (page 6).

Detailed findings appear in the following section. Appendix I contains the scope and
methodology. Appendix II contains management comments. Our evaluation of these
comments is on page 7 of this report. Appendix III contains examples of MCA logos.




                                              2

REVIEW FINDINGS 

MCC’s Branding and Marking
Guidance Lacks Specifics
One of MCC’s key messages in the Standards for Global Marking is that its compacts are grants
made possible by the generosity of the American people. The other is that MCC’s compacts are
a partnership formed with countries committed to improving the lives of their citizens by
reducing poverty. These messages are conveyed through MCA logos, manuals, and project
signs. However, OIG found several examples in which MCC could do more to strengthen these
messages.

MCA logos did not incorporate text acknowledging the generosity of the people of the
United States. OIG’s review of MCA logos in seven countries (El Salvador, Ghana, Mali,
Mongolia, Morocco, Namibia, and Tanzania) found that the logos did not contain language, such
as a tagline, that acknowledges the generosity of the American people. Instead, the MCAs
used the American flag to communicate that message. OIG also found that the prominence of
the American flag in the logos varied; some logos incorporated only a small flag or a portion of
it. (Appendix III presents the seven logos.)

In comparison, USAID changed its policy to strengthen this same message.1 It added language
(i.e., a tagline) to its logo to ensure that people understood the assistance came from U.S.
taxpayers—thus raising the visibility of American foreign aid.

MCC’s Standards for Global Marking requires MCA logos to acknowledge the generosity of the
American people. However, it does not explain how MCAs should comply with this requirement.
In practice, MCC officials allowed the MCAs to use the American flag or elements of the
American flag in their logo because it is a symbol easily recognizable overseas.

MCC’s post compact recognition guidelines lacked clarity. MCC’s branding and marking
requirements were not clear on how long project signs should remain at project sites. MCC’s
Standards for Global Marking says the signs should last at least as long as the duration of the
compact. However, MCC’s compact closeout plan allows MCAs to determine how long project
signs should remain at a site after a compact ends.

In comparison, USAID’s policy requires contractors to install a permanent, durable, and visible
sign, plaque, or other marking after construction or implementation is complete. This
requirement applies to visible infrastructure projects (e.g., roads, bridges, buildings) as well as
to others (e.g., agriculture, forestry, and water management) that are financed by USAID
contracts.




1
  In some instances, OIG compared MCC’s policy with USAID’s policy, since a Government
Accountability Office (GAO) report recognized USAID as having the most comprehensive branding and
marking policy compared with other organizations (Government Accountability Office, “Foreign
Assistance: Actions Needed to Better Assess the Impact of Agencies’ Marking and Publicizing Efforts,”
Report No. GAO-070277, March 12, 2007).


                                                 3

MCC’s Standards for Global Marking does not include a specific requirement to create
permanent, durable signs on permanent structures like roads and schools built with MCC
funding. Instead, the standards imply that signs are required only until the compact ends.

MCA draft communication strategies did not fully convey MCC’s messages. OIG’s review
of four MCA communication strategies found that they did not convey the same key messages
stated in MCC’s standards.2 For example, MCA-Mongolia’s communication strategy focused on
the compact’s objectives—to reduce poverty and increase economic growth—instead of the two
key messages outlined in Standards for Global Marking.

OIG also found that the communication strategies did not contain the same types of information
or the same level of detail. For example, MCA-Mongolia’s strategy had detailed information
about the MCA, its function, constraints to advocacy and public affairs, the resources it would
use, risk mitigation, and its action plan; it also provided a detailed account of the roles and
responsibilities for MCA staff members and the MCA’s relationship with other stakeholders,
such as the U.S. Embassy. In contrast, MCA-Tanzania’s communication strategy contained
brief discussions about key activities, strategy, and target audience; general and specific
objectives for branding and marking; the types of messages it would deliver; the communication
channels and tools it would use; the information that could be included in its budget; and an
implementation and coordination plan.

USAID’s ADS 320.3.2 requires its contractors to create a branding strategy and implementation
plan similar to the MCAs’ communication strategy. USAID policy requires and provides specific
criteria for creating both. For example, the branding strategy explains how the materials and
communications are to be positioned (i.e., as from the American people, jointly sponsored by
USAID and the host-country government, or in some other way), the desired level of visibility,
and any other organizations to be acknowledged.             Contractors develop a branding
implementation plan to describe how they plan to promote the program to beneficiaries and
host-country citizens. It outlines the events and materials the contractor would organize and
produce to help USAID deliver the message that the assistance is from the American people.

Although in practice MCAs create communication strategies, MCC’s Standards for Global
Marking does not require it. Furthermore, MCC does not provide specific criteria for developing
the communication strategies, including a plan for implementing the strategy. There is also no
requirement for obtaining the approval of the strategies.

MCA branding and marking manuals were not required. OIG found that compact countries
did not always create branding and marking manuals as suggested by MCC’s Standards for
Global Marking. El Salvador, Mongolia, and Namibia were three of seven compact countries
reviewed (43 percent) that created these manuals.

OIG also found that each manual contained various kinds of information. MCA-Namibia’s
manual contained branding and marking requirements in contracts, while El Salvador’s included
procedures for branding with other stakeholders.

The lack of standardized manuals occurred because MCC does not require each MCA to create
one, nor does it provide specific guidance on how to do so. By creating a manual, MCAs can
tailor MCC’s Standards for Global Marking to their individual needs. The MCA’s manual would

2
 A communication strategy is a document that describes the key messages that the MCA will deliver
during compact implementation.


                                               4

also establish rules and country-specific guidance on the technical aspects for using the MCA
brand, such as marking with other stakeholders. This valuable tool could help ensure that a
clear, concise message is delivered in each compact country.

Certain MCA project signs did not comply with MCC’s policy. OIG found problems with
signs at the eight infrastructure project sites visited. MCC’s logo was smaller than those of the
MCA and other stakeholders on five of the eight signs. In addition, the contractor’s logo
appeared on six of the eight signs. The image below shows one sign that does not comply.




                                                                                            This is MCC’s
    This is                                                                                     logo.
      the
    MCA’s
     logo.
                                                                                              This is the
                                                                                             contractor’s
                                                                                                logo.



                 This sign for an infrastructure project in El Salvador has the
                 contractor’s logo, which is not supposed to be included. Additionally,
                 MCC’s logo should be the same size as the MCA’s and those of other
                 stakeholders. (Photograph by MCC OIG auditors, March 2011)

MCC’s Standards for Global Marking requires that works projects and projects with locales3 be
marked with a sign, plaque, or other device. These signs must promote the MCA’s partnership
with MCC. They may also include the logos of U.S. Government agencies, the host
government, and nongovernmental agencies providing goods and services in collaboration with
the MCA. However, MCC’s logo must be at least the same size as the other stakeholders. The
Standards for Global Marking also definitively states that contractor logos may not be displayed
or provide any other representation of their company on any material purchased or paid for with
MCC funds.

MCC policy does not designate someone responsible for monitoring compliance with branding
and marking requirements. More definitive standards and oversight procedures would ensure
that MCC achieves its objective by communicating a clear, consistent message in each country
throughout the length of the compact. To address all of the above concerns, this audit makes
the following recommendations.

       Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
       President for Congressional and Public Affairs revise Standards for Global Marking to
       require that Millennium Challenge Account logos clearly and consistently acknowledge
       the generosity of the people of the United States.


3
 According to MCC, “projects with locales” are projects resulting in the construction of a structure, like a
school.


                                                      5

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs revise Standards for Global Marking to
   require that permanent and durable signage is created and placed at project sites
   resulting in permanent structures.

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs establish and implement procedures for
   developing, implementing, and approving Millennium Challenge Account communication
   strategies.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs revise Standards for Global Marking to
   include specific criteria for creating Millennium Challenge Account branding and marking
   manuals.

   Recommendation 5. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs revise Standards for Global Marking to
   require each compact country to create a branding and marking manual.

   Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs establish and implement a policy for
   oversight responsibilities of branding and marking in each compact country.

MCC’s Branding Costs
Were Not Known
MCC was not able to provide OIG with how much it spent on branding in each compact country.
MCC officials indicated that these costs are classified as general administrative costs or
included in the cost of fixed-price contracts, largely for works projects. In comparison, to
manage project costs, USAID’s policy includes branding cost requirements. It states that
branding costs are normally included in the total estimated costs of the bid or offer of a potential
contractor.

MCC’s Standards for Global Marking does not require the MCAs to account for and report
branding costs to headquarters. In addition, MCA contracts did not require contractors to
segregate branding costs. As a result, MCC does not have the information needed to help
oversee branding and marking overseas, and to determine whether insufficient, sufficient, or
excessive amounts of compact funds are being spent on these efforts in each country. To
address this concern, this audit makes the following recommendation.

   Recommendation 7. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs establish and implement procedures to
   account for branding budgets and expenditures in its compact countries to provide the
   Millennium Challenge Corporation and the Millennium Challenge Accounts the cost
   information to manage its branding and marking efforts.




                                                 6

EVALUATION OF MANAGEMENT
COMMENTS
MCC’s written comments on the draft report are included in their entirety in Appendix II of this
report. MCC stated that it agreed with all seven recommendations, although its comments on
one indicated that implementing the recommendation would not be cost-effective. OIG’s
evaluation of the comments appears below.

MCC agreed with Recommendation 1, to revise its Standards for Global Marking to provide
specific requirements to ensure that Millennium Challenge Account logos clearly and
consistently acknowledge the generosity of the American people. MCC revised its global
branding and marking guidelines to include a required template for new partner countries. The
new template highlights the partnership between the United States and the partner country and
ensures that the role of the United States is clearly and immediately recognized. MCC also
revised its global branding and marking guidelines to require partner countries to include the
“United States of America” when MCC’s logo is used. OIG agrees with MCC’s management
decision. Final action will occur when MCC issues its revised global branding and marking
guidelines.

MCC agreed with Recommendation 2, to revise its Standards for Global Marking to ensure that
permanent, durable signs are created and placed at project sites that become permanent
structures. MCC revised its global branding and marking guidelines to require the MCAs to
erect durable, permanent signage at all infrastructure sites. OIG agrees with MCC’s
management decision. Final action will occur when MCC provides issues its revised global
branding and marking guidelines.

MCC agreed with Recommendation 3, to establish and implement procedures for developing,
implementing, and approving the Millennium Challenge Account communication strategies. In
its response, MCC stated that it has revised its global branding and marking guidelines to
require MCAs to prepare a communications strategy, which MCC will review and approve. OIG
agrees with MCC’s management decision. Final action will occur when MCC issues its revised
global branding and marking guidelines.

MCC agreed with Recommendation 4, to revise its Standards for Global Marking to include
specific criteria for creating Millennium Challenge Account branding and marking manuals. Yet
MCC’s response instead mentions requiring all MCAs to include branding and marking sections
in their communication strategies. Nonetheless, MCC’s response to Recommendation 5
satisfies this recommendation, and for that reason, OIG agrees with MCC’s management
decision. Final action will occur when MCC issues its revised global branding and marking
guidelines.

MCC agreed with Recommendation 5, to revise its Standards for Global Marking to require each
compact country to create a branding and marking manual to establish rules and country-
specific guidance on the technical aspects of the Millennium Challenge Account brand. In its
response, MCC stated that its revised branding and marking guidelines require MCAs to create
a manual. MCC will also provide more oversight and guidance on implementation of the
technical aspects of the brand. OIG agrees with MCC’s management decision. Final action will



                                               7

occur when MCC issues its revised global branding and marking guidelines.

MCC agreed with Recommendation 6, to establish and implement a policy for oversight
responsibilities of branding and marking in each compact country. In its response, MCC stated
that it revised its global branding and marking guidelines to clarify branding and marking roles
and responsibilities within the MCC and each compact country. OIG agrees with MCC’s
management decision. Final action will occur when MCC issues its revised global branding and
marking guidelines.

Although MCC said it agreed with Recommendation 7, to establish and implement procedures
to account for branding budgets and expenditures in its compact countries to provide MCC and
MCAs the cost information they need to manage branding and marking efforts, MCC’s detailed
response indicated that was not the case. In its response, MCC stated that because tracking
and monitoring branding and marking costs at a low level of detail would not be cost-effective, it
would continue to track communications/public outreach expenditures included in the MCA’s
administrative budgets.

While OIG would encourage MCC to obtain cost information so that it can monitor these
expenditures, OIG believes that MCC’s actions to address Recommendations 3 through 6 will
strengthen the controls over the branding and marking activities. With this strengthened
oversight, MCC should be able to identify anomalies among its compact countries’ branding and
marking activities and take appropriate action. With that in mind, OIG agrees with MCC’s
management decision and considers that MCC has taken final action on the recommendation.




                                                8

                                                                                   Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this review in accordance with Government Auditing Standards, July 2007
Revision (GAO-07-731G), specifically Chapters 3 and 7, Sections 7.55 and 7.72 to 7.79. We
planned and performed this review to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objective. We believe that the
evidence obtained provides that reasonable basis.

OIG conducted its fieldwork at MCC headquarters in Washington, D.C., from August 10 to
November 17, 2011. OIG designed steps to review MCC’s branding and marking policies and
practices for compact countries. OIG focused its review on El Salvador, Ghana, Mali, Mongolia,
Morocco, Namibia, and Tanzania because OIG conducted audits or reviews of these countries
during fiscal year 2011. These countries represent 42 percent or $3.45 billion of the compacts
signed.

Methodology
To answer the review objective, we:

	 Interviewed MCC staff to gain an understanding of MCC’s branding and marking policies
   and practices for MCAs.

	 Examined and analyzed documents, such as branding and marking guidelines, compact
   agreements, program implementation agreements, contracts, and compact closure
   guidelines, to determine what branding and marking requirements MCC has for its compact
   countries.

	 Compared MCC’s branding and marking policies with the branding and marking policies and
   practices of USAID, because its policy is the most comprehensive of several agencies,
   according to a GAO report.

	 Examined the Web sites for MCAs in El Salvador, Ghana, Mali, Mongolia, Morocco,
   Namibia, and Tanzania, to determine whether they complied with MCC's policies on
   branding and marking for Web sites.

	 Examined select MCAs’ branding and marking manuals and draft communication strategies
   to determine how MCC could improve its guidance to the MCAs.

	 Reviewed the MCA logos for the select compact countries to ensure that they complied with
   MCC’s policy.

	 Reviewed OIG photographs of signs at infrastructure projects during audits of El Salvador,
   Mali, Mongolia, Namibia, and Tanzania to determine whether the MCAs complied with
   MCC’s branding and marking policies.




                                              9

                                                                               Appendix I


	 Reviewed 12 infrastructure contracts for El Salvador, Ghana, Mali, Mongolia, Morocco,
   Namibia, and Tanzania to determine whether the contracts included branding and marking
   requirements.

	 Interviewed MCC staff to gain an understanding of how MCC and the MCAs capture and
   use branding costs.




                                           10 

                                                                                    Appendix II



MANAGEMENT COMMENTS




                                                      MEMORANDUM


DATE: 	       January 20, 2012

TO:	          Mark Norman,
              Acting Deputy Assistant Inspector General for Audit

FROM:	        T. Charles Cooper, Vice President, /s/
              Department of Congressional and Public Affairs – Audit Follow Up Official

Dear Mr. Norman:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of the Inspector General’s (OIG) draft report on the “Review of the Millennium Challenge
Corporation’s Branding and Marking Policies and Practices.”

MCC’s specific responses to the seven recommendations in the draft report are detailed below.

   Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
   President for the Department of Congressional and Public Affairs revise its Standards for
   Global Marking to provide specific requirements to ensure Millennium Challenge
   Account logos clearly and consistently acknowledge the generosity of the people of the
   United States of America.

   MCC response: MCC agrees with this recommendation and with the importance of
   ensuring Millennium Challenge Account (MCA) logos follow established guidelines and
   acknowledge the generosity of the people of the United States of America. As a result,
   MCC revised its global branding and marking guidelines to provide a required template
   for new partner countries that prominently displays both the American and partner
   country flags in MCA logos. This new template has been designed to emphasize the
   partnership between the two countries and to ensure that the role of the U.S. is clearly
   and immediately recognized. MCC has also modified its guidelines to require partner
   countries to include “United States of America” in the MCC logo when the logo is being
   used or displayed by MCAs. These new requirements align with MCC’s country
   ownership model and will increase recognition of the generosity of the people of the
   United States of America in the countries in which we work pursuant to the statutory


                                              11 

                                                                                 Appendix II


requirement. MCC considers this to be a management decision and final action.

Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Congressional and Public Affairs revise its Standards for
Global Marking to ensure permanent and durable signage are created and placed at
project sites resulting in permanent structures.

MCC response: MCC agrees with this recommendation. As part of its newly revised
branding and marking guidelines, MCC requires MCAs to erect a durable plaque at all
infrastructure work sites. The plaque must be made of sturdy, weather-resistant
material, be designed to last until well after the compact ends, and must include the
MCC logo. Many compact projects currently include such permanent and durable
plaques, but the new requirement will ensure consistency across all compacts and
projects going forward. MCC considers this to be a management decision and final
action.

Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Congressional and Public Affairs establish and
implement procedures for developing, implementing, and approving the Millennium
Challenge Account communication strategies.

MCC response: MCC agrees with this recommendation.                MCC has already
implemented procedures to ensure MCC and MCA communication strategies are more
closely aligned. This includes the “MCC Communications College,” which is an
important tool for reviewing country strategies, building MCA communications capacity,
and promoting message consistency. MCC is also developing a training module and
toolkit for MCA field communicators to strengthen capacity and consistency. Finally,
MCC’s revised global branding and marking manual requires MCAs provide their annual
communications plan to the Department of Congressional and Public Affairs for review,
input and approval. MCC considers this to be a management decision and final action.

Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
President for the Department of Congressional and Public Affairs revise its Standards for
Global Marking to include specific criteria for creating Millennium Challenge Account
branding and marking manuals.

MCC response: MCC agrees with this recommendation. Currently several MCAs have
branding and marking manuals that are separate from their communication strategies.
As part of the newly revised branding and marking guidelines, MCC is now requiring that
all MCAs include branding and marking sections in their communication strategies.
These new guidelines also provide a template for each MCA’s use. MCC considers this
to be a management decision and final action.

Recommendation 5.
We recommend that the Millennium Challenge Corporation’s Vice President for the
Department of Congressional and Public Affairs revise its Standards for Global Marking
to require each compact country to create a branding and marking manual to establish
rules and country-specific guidance on the technical aspects of the Millennium
Challenge Account brand.

MCC response: MCC agrees with this recommendation. MCC’s new branding and


                                           12 

                                                                                       Appendix II


   marking guidelines require MCAs to create their own branding and marking manuals to
   establish rules and country-specific guidance on the use of MCC and MCA logos and
   brands. MCC now requires MCC approval of MCA communications plans and will
   provide more oversight and guidance on implementing the technical aspects of the
   brand. MCC considers this to be a management decision and final action.

   Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
   President for Congressional and Public Affairs establish and implement a policy for
   oversight responsibilities of branding and marking in each compact country.

   MCC response: MCC agrees with this recommendation. The new branding and marking
   guidelines provide additional clarity regarding branding and marking roles and
   responsibilities within the MCC and in each compact country. MCC considers this to be a
   management decision and final action.

   Recommendation 7. We recommend that the Millennium Challenge Corporation’s Vice
   President for Compact Operations establish and implement procedures to account for
   branding budgets and expenditures in its compact countries to ensure that the
   Millennium Challenge Corporation and the Millennium Challenge Accounts have cost
   information to manage its branding and marking efforts.

   MCC response: MCC agrees with this recommendation. MCC will continue to track
   communications/public outreach expenditures in MCA administrative budgets. Seeking
   to breakout costs at a lower level of detail is not cost effective and would generate little
   or no management benefit. Given the wide distribution of this funding across different
   project activities, and the relatively small amounts involved, MCC will ensure that MCAs
   comply with the new branding guideline to ensure that there is appropriate branding and
   marking of MCC projects. MCC considers this to be a management decision and final
   action.

Thank you for the opportunity to provide our comments on the draft report. Please contact Pat
McDonald, Compliance Officer, if you have any questions or require any additional information.




                                               13 

                                                                                    Appendix III


                              Examples of MCA Logos
Below are examples of MCA logos that include the American flag or elements of it.


         El Salvador                                               Ghana




            Mali                                                  Mongolia




          Morocco                                                  Namibia




         Tanzania




                                              14 

U.S. Agency for International Development 

        Office of Inspector General 

for the Millennium Challenge Corporation 

              1401 H Street NW
           Washington, DC 20005
             Tel: 202-216-6961
             Fax: 202-216-6984
            www.usaid.gov/oig
